Ti

@OCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-54

KAROLYN GIVENS, et al.,
Petitioners,

Vv.
MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of August, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE PUBLIC LAW SCHOLARS AND
CONCERNED LANDOWNERS IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

NEIL S. SIEGEL ERNEST A. YOUNG
3148 Hillandale Rd., Counsel of Record

Apt. 307 3208 Fox Terrace Dr.
Durham, NC 27705 Apex, NC 27502
(919) 599-8495 (919) 360-7718
siegel@law.duke.edu young@law.duke.edu

Counsel for Amici Curiae

Subscribed and sworn to before me this 8th day of August, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

Srl, 3 EC Clit Qydiaw-h, Chile

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38507

 
 

Attorneys for Petitioners

Christopher Stephen Johns Johns & Counsel PLLC 512-399-3150
Counsel of Record 14101 Highway 290 West, Suite 400A
Austin, TX 78737

cjohns@johnsandcounsel.com

Party name: Karolyn Givens, et al.

 

 

Attorneys for Respondent

Colin Emmet Wrabley Reed Smith LLP 412-288-3548
Counsel of Record 225 Fifth Avenue
Pittsburgh, PA 15222

cwrabley@reedsmith.com

Party name: Mountain Valley Pipeline, LLC

 

 
